          OFFICE OF INSPECTOR GENERAL
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE




                         Audit of the
             AmeriCorps Education Awards Program

                    Audit Report Number 03-10
                        December 10,2002




                           Prepared by:

                   Office of Inspector General
         Corporation for National and Community Service
                     1201 New York Avenue
                     Washington, DC 20525




This report was issued to Corporation Management on January 3 1, 2003.
                                                   Office of Inspector General

                            Audit of the AmeriCorps Education Awards Program
                                                    Audit Report Number 03-10


                                                           Table of Contents



Executive Summary .................................................................................................................. 1

Background ............................................................................................................................... 1

Results in Brief .........................................................................................................................        3

Objectives. Scope and Methodology ........................................................................................                        3

Results .......................................................................................................................................   4
                                                                                           CORPORATION

                                                                                           FOR NATIONAL



January 3 1,2003


Peg Rosenberry, Director
Office of Grants Management
Corporation for National and Community Service
1201 New York Avenue
Washington, DC 20525


This report presents the results of our audit of the ArneriCorps Education Awards Program.
This audit is the Office of Inspector General's first review of the program and its operations.
Presently, the Corporation for National and Community Service (Corporation or CNCS)
manages over $12.4 million in AmeriCorps Education Awards Program grants to 77 grant
recipients. Individual grant awards range from $850 to over $2.4 million.

Executive Summary

In our opinion, the Corporation has adequate controls in place to ensure AmeriCorps
Education Awards Program grant expenditures are made in accordance with program
requirements.      Our audit work did not disclose any findings and therefore, no
recommendations are provided. We acknowledge the Office of Grants Management's
initiative to revise closeout procedures to consider the grantee's accomplishment of required
member enrollments since that is directly linked to the grantee's fixed amount award.

Background

The Corporation established the AmeriCorps Education Awards Program (AEAP) in 1996 as
a new AmeriCorps initiative. AmeriCorps includes programs that involve thousands of
Americans, age 17 and over, in community service and provides education awards in
exchange for their service through AmeriCorps*State and National and AmeriCorps*VISTA
(Volunteers in Service to America)'. The AEAP is authorized under Division C, National
Service Trust Program, and Division D, National Service Trust and Provision of National
Service Educational Awards, of the National and Community Service Act of 1990 (NCSA),
as amended. The AmeriCorps Education Awards Program's funding is authorized under
NCSA's Division H, Investment for Quality and Innovation. Division H permits the
Corporation to undertake activities to improve the quality of national service programs and to
support innovative and model programs.




' AmeriCorps*State and National consists of State and local programs. AmeriCorps*VISTA helps low-income
neighborhoods.
                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
The Corporation modeled the AmeriCorps Education Awards Program after the
AmeriCorps*State and National Program that makes grants to community-based
organizations. These organizations recruit participants, referred to as members by the
Corporation, of all ages and backgrounds in service projects that address environmental,
educational, public safety, or other human needs at the local level. Upon successful
completion of their service, members receive an education award through the National
Service Trust.

The Corporation initiated the AmeriCorps Education Awards Program among other efforts to
address Congressional interest in reducing the cost of AmeriCorps. The AEAP increased the
number of members enrolled while reducing the total cost per member. As an innovative
approach, the Corporation designed AEAP grants to be used directly for costs associated with
administering and managing a grantee's service projects. In contrast, other AmeriCorps
grants, such as those under the AmeriCorps*State and National Program, are used to fund
member benefits, including living allowances, health insurance, and childcare service, if
needed. The AEAP does not fund such member benefits and, as its name implies, provides
education awards only. As a result, the overall cost per member in AmeriCorps network
programs was reduced. During fiscal year 2002, this program accounted for approximately
13,000 members as part of AmeriCorps. The AEAP supports a wide variety of service
opportunities, including mentoring, tutoring, teacher development and faith-based initiatives.

AmeriCorps Education Awards Program grants are fixed-amount awards. In determining the
amount of these awards, the Corporation considers the number of "full-time equivalents" that
the grantee agrees to enroll. One full-time equivalent (FTE) equals a full-time education
award for which a minimum of 1,700 hours of service has to be completed. Hence, a grantee
may enroll members to serve in a combination of full-time, part-time and reduced part-time
positions to achieve its total agreed upon FTEs. Significantly, the Corporation sets a limit on
the grant support per FTE. That amount has varied over the years due to program funding
levels. In fiscal year (FY) 2002, the Corporation set the fixed amount at $400 or less per full-
time equivalent. Previously, the fixed-amount award per FTE was set at $1,000 in FY 1997,
$800 in FY 1998, $500 for FY 1999 and FY 2000, and $400 in FY 2001. The authorized
amount of the fixed-amount award continued to decline from FY 1997 to FY 2001 as the
Corporation sought to further reduce the cost per AmeriCorps member. A grantee's total
fixed amount award in relation to its total FTEs must not exceed the Corporation-specified
fixed price per FTE.

Because AmeriCorps Education Awards Program awards are based on fixed amounts rather
than incurred costs, grantees are not required to document their expenditures or submit
financial status reports.' However, grantees must still comply with Federal administrative
requirements as defined in the grant provisions. Grantees must meet the agreed upon number
of eligible member enrollments. The Corporation considers member enrollments along with
program objectives as the main performance standards under AEAP.



  Between 1996 and 1999, the Corporation did require that recipients of AEAP grants submit financial status
reports.
Results in Brief

AmeriCorps Education Awards Program grants are directly linked to member enrollments.
Consequently, the Corporation uses enrollments as its performance measure to determine
whether AEAP grantees are entitled to their grant funding. The Corporation recently began
closeout of expired AEAP grants. Initially, these grants were closed using the same
procedures for closing AmeriCorps*State/National grants. Such procedures only involved
reconciling grantee drawdowns from the Department of Health and Human Service's (HHS)
Payment Management System with the grantee's reported amounts in its final financial status
report for the grant's total performance period. Since 1999, however, AEAP grantees have
not been required to submit financial status reports, only program reports. During our audit,
the Office of Grants Management revised its closeout procedures to more specifically address
AEAP grants. The revised closeout procedures now include steps to compare member
enrollments that are recorded in the Web-based Reporting System maintained by the National
Service Trust against grantee drawdowns from the HHS Payment Management System.
OGM uses the results of this comparison to determine whether the grantee was entitled to its
AEAP total funding.

Based on our review of ten AEAP grants, we concluded that the Office of Grants
Management is properly managing and administering the education award only program and
that grant funding is used for authorized purposes under the terms and conditions of the
AEAP provisions. Additionally, the Corporation has instituted automated member reporting
systems and grant closeout procedures to facilitate timely adjustments to total funding
available to specific AEAP grantees if their actual member enrollments are less than the
anticipated member recruitments negotiated during the grant award process.

Objectives, Scope and Methodology

The primary objective of the audit was to obtain an understanding of the AmeriCorps
Education Awards Program, including documenting and reviewing the management controls
over these grants. In addition, the audit evaluated CNCS and grantee compliance with AEAP
grant requirements.

To meet the objective of understanding this program, we interviewed responsible grants and
program staff, documented and reviewed the program's authorizing legislation, CNCS grant
award and monitoring policies and procedures, and key management controls.

To determine compliance with AmeriCorps Education Awards Program grant requirements,
we judgmentally (based primarily on dollar value of the award and whether or not the grant
was finished) selected ten active and expired AEAP grant awards representing various
recipient types. Our selection represents approximately 6 percent of the total number of
AEAP grantees. We reviewed these ten awards to determine whether certain AEAP
requirements over member enrollments were complied with using documentation from
program and official grant files. Specifically, we determined whether changes to member
enrollments were properly recorded and supported. In addition, we determined whether
funds were returned to the Corporation or pro-rated in cases where grantees did not achieve
their budgeted number of member enrollments.

An exit conference was held with Office of Grants Management representatives on
December 10,2002.

We conducted our audit work at the Corporation's headquarters from August to October
2002 in accordance with audit standards generally accepted in the United States of America
and with Government Auditing Standards. These standards require that we plan and perform
the audit to obtain reasonable assurance that the AEAP funds were spent in accordance with
program requirements. The scope of our audit work did not include a review of AEAP
awards made to State commissions. The Office of Inspector General has ongoing incurred
cost audits of grants awarded to selected State commissions. Thus, our work focused
exclusively on AEAP grants that the Corporation's headquarters directly awarded. Further,
our audit work did not include a review of member enrollment files.

Results

In our opinion, the Corporation has adequate controls in place to ensure AmeriCorps
Education Awards Program grant expenditures are made in accordance with program
requirements.


I. Controls are in place at the Corporation for monitoring and oversight of grantee
   performance and compliance with AEAP grant requirements.

The Corporation issued policies and procedures for management and oversight of
AmeriCorps grants, including AEAP grants. CNCS Policy No. CFO-029, Pre-award Review
of Grant Applicant's Financial Management Capabilities, prescribes specific procedures to
be performed by Office of Grants Management staff in determining whether a grant applicant
has the financial capabilities and systems in place to manage and safeguard Federal funds. In
addition, CNCS Policy No. 600, Grant Files Management prescribes procedures for
maintenance of hard copy financial and program documents, forms, and memoranda needed
to properly award, monitor and closeout CNCS grants, including AEAP grants. CFO-005,
Closeout of Corporation-Funded Grant Awards, sets forth procedures to finalize grants that
have expired.

In addition to policies covering all AmeriCorps awards, Corporation personnel use program
guidance documents and monitoring tools tailored to AEAP grantees. Specifically, grant
provisions articulate Federal requirements and the grantee's responsibilities. Provision No.
36 emphasizes that fixed amount awards are dependent upon the agreed upon number of
member enrollments. A training manual entitled, Starting Strong and Staying on Track,
provides further guidance on the management of AEAP grants, and explains fixed amount
awards and member enrollment requirements. This manual is distributed to new grantees as
part of their program orientation. The Corporation established site visit procedures and tools
procedures and tools to assess AEAP grantee performance and compliance in achieving
agreed upon member enrollments.

In September 2002, at the time of our fieldwork, the Office of Grants Management developed
and implemented revised closeout procedures for AEAP grants. The Corporation has
engaged contractors to perform these steps. During the closeout, contractors obtain
drawdown information from the HHS Payment Management System. With this information,
they review the reported amounts for cash advances and cash disbursements. The contractors
also compare the cash disbursements against the amounts reported on the grantee's final
cumulative financial status report if one was required (this step applies only to grantees
required to submit financial reports before 2000).


11. The Office of Grants Management documents and approves changes to member
    enrollments in accordance with AEAP grant requirements.

Fixed amount awards under the AmeriCorps Education Awards Program are typically made
for multi-year periods. If the grantee fails to recruit its expected number of members, the
Office of Grants Management considers this factor at the time of renewal and adjusts funding
accordingly. Alternatively, the grantee may request position conversions or request a waiver
to extend the one-year limit for enrolling members under AEAP provisions. The grantee
may convert its original spaces to another combination of full-time, part-time or less than
part-time as long as its total full-time equivalents remain the same.

We observed examples of review and approval of requested position conversions. We also
noted a case where a grantee requested and obtained approval to extend the one-year period
to enroll members. In the latest AEAP provisions issued in June 2002, the one-year
timeframe has been eliminated. The revised provisions emphasize only that the grantee must
seek to enroll the number of full-time and less than full-time members agreed upon in its
approved application.


111. The Office of Grants Management is performing closeout procedures to determine
    whether AEAP grantees were entitled to their grants funding based on the actual number
    of members enrolled.

 The Corporation's revised closeout procedures now include additional steps more specific to
 AEAP grants. For example, the contractor now reconciles the drawdowns with the actual
 number of members enrolled while considering the cost per full-time equivalent agreed upon
 under the award. The contractor obtains actual member enrollments directly from the
 National Service Trust. Office of Grants Management staff emphasized that the grantee is
 only required to achieve the number of member enrollments despite members who fail to
 successfully complete their service or separate from the program. If this reconciliation
 identifies an excess draw down of funds, however, the grantee is required to refund the
 excess to the Corporation.
We verified that the revised closeout procedures were being performed on closeouts of
expired AEAP grants. In doing so, we completed an analysis of these procedures and
reviewed the closeout of one expired AEAP award. Our review confirmed that the contractor
compared member enrollments in the grant award with the corresponding fixed amount
actually awarded. In addition, the contractor obtained member enrollment information from
the National Service Trust that covered the grant's full performance period. As part of this
step, the contractor also retrieved drawdown amounts from the HHS Payment Management
System and reconciled them with the number of actual member enrollments recorded in the
Web-based Reporting System.

Our audit work did not disclose any findings and therefore no recommendations are
provided. We acknowledge the Office of Grants Management's initiative to revise closeout
procedures to consider the grantee's accomplishment of required member enrollments since
that is directly linked to the grantee's fixed amount award. Because AEAP grantees are no
longer required to submit financial status reports, it is imperative that the Corporation
perform such reviews as part of its closeout procedures to ensure that these grantees are
entitled to their total claimed grants funding based on actual member enrollments.

Distribution

This report is intended solely for the use of the Office of Inspector General, the Corporation
management and the United States Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




J. Russell George
Inspector General
Corporation for National and Community Service
Washington, D.C.


Copy to:
Michelle Guillermin, Chief Financial Officer
Rosie Mauk, Director, AmeriCorps
